                                               U. S. DEPARTMENT OF
                                  HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL




                                                              MEMORANDUM NO:
August 6, 2012                                                2012-FW-1804


MEMORANDUM FOR:                Elva Garcia, Director
                               Office of Community Planning and Development, 6JD

               //signed//
FROM:          Gerald R. Kirkland
               Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT:       The City of San Antonio, TX, Did Not Administer Its Neighborhood Stabilization
               Program Grant in Accordance With Requirements


                                           INTRODUCTION

In accordance with our goal to review Housing and Economic Recovery Act of 2008 grantees
and because of weaknesses identified by the U.S. Department of Housing and Urban
Development (HUD), the Office of the Inspector General (OIG) initiated a review of the City of
San Antonio’s activities funded by its Neighborhood Stabilization Program 1 grant. The
objective was to determine whether the City administered its grant in accordance with program
requirements.

                                METHODOLOGY AND SCOPE

We performed the audit work at the City’s Office of Grants Monitoring and Administration, one
local for-profit entity, and the OIG audit offices in Fort Worth and San Antonio, TX. The audit
generally covered the period October 1, 2009, through September 30, 2011, but we expanded the
scope as necessary to meet the audit objective. To accomplish the objective, we reviewed the
following:

   •   Relevant criteria governing the Act, program regulations, and HUD’s guidance;
   •   The City’s grant agreement with HUD and its agreements with various entities;
   •   The City’s grant expenditures included on its audited financial statements for fiscal year
       2010;
   •   The City’s organizational structure, policies, and procedures for the administration of
       program activities;
   •   Program activities at 21 residential properties, including 15 that had been sold and 6 that had
       not been resold during the review period;
   •   Bexar County Appraisal District public records for 5 residential properties; and
                                                Office of Audit (Region 6)
                                 819 Taylor Street, Suite 13A09, Fort Worth, TX 76102
                                      Phone (817) 978-9309, Fax (817) 978-9316
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                                                                                      2


   •   The City’s affordability policies, procedures, and provisions in its agreements with various
       entities and program participants.

We also conducted interviews with HUD staff, City staff, the staff of a local entity, and a
representative from the Texas Department of Housing and Community Affairs.

                                         BACKGROUND

The program was authorized under Division B, Title III, of the Act and provides grants to all
States and selected local governments on a formula basis. The Act appropriated $3.92 billion in
program funds for emergency assistance in the redevelopment of abandoned, foreclosed-upon,
and residential properties. The program was established for the purpose of stabilizing
communities that have suffered from foreclosures and abandonment. Generally, program funds
must be used to buy, rehabilitate, and resell foreclosed-upon and abandoned homes. Grantees
may decide how to use the funds and what specific redevelopment activities to undertake, subject
to program requirements.

                                     RESULTS OF REVIEW

The City did not administer its program in accordance with program monitoring, cost eligibility,
and affordability requirements. This condition occurred because the City did not understand the
program rules. As a result, it could not support more than $1.1 million in program expenditures,
including more than $1 million that it used to acquire, renovate, and resell residential properties
without the required affordability provisions and $124,555 for unsupported residential
renovation reimbursements. The City also paid more than $2.5 million for renovation contracts
that it could not show were competitively procured or reasonably priced.

The City did not ensure that home buyers were aware of affordability provisions and did not
execute agreements to ensure compliance with minimum affordability provisions. It provided
various entities more than $1.8 million in program funds to renovate and resell 15 residential
properties. At nine of these properties, with renovation costs of more than $1 million, the City
did not properly notify home buyers of or execute agreements with the required affordability
provisions. The lack of proper affordability agreements occurred because the City was
apparently unaware of the requirements.

The City did not have support for $124,555 in reimbursed renovation costs because it did not
fully understand program requirements. It entered into agreements with six local for-profit and
nonprofit entities to acquire, renovate, and resell residential properties to eligible program
participants. The City reimbursed more than $1.8 million in program funds to the 6 local entities
for renovation costs related to the 15 resold residential properties. It reimbursed $219,003 to one
local entity for the renovation of seven residential properties. Of that amount, the City did not
have support for $124,555, or about 57 percent, of the amount paid to the local entity for
renovation reimbursements.

The City did not have support for $2.5 million in development contracts. This condition
occurred because the City did not take steps to ensure that its developers did not receive undue
enrichment from development contracts. The City entered into contracts totaling more than $5
                                                                                                3


million with the developers of three multiple-unit housing developments. It reviewed support for
$2.5 million in construction costs for one of the three properties. However, it did not take steps
to monitor the remaining $2.5 million in renovation contracts at the other two housing
developments.

The HUD San Antonio Office of Community Planning and Development began a monitoring
review of the City’s program activities shortly after we began our review. We worked closely
with the San Antonio office and discussed issues identified in both reviews. During our field
work, the San Antonio office began working with the City to initiate corrective actions to address
the identified deficiencies. In particular, the San Antonio office developed strategies to ensure
that the City notified homeowners about affordability provisions and executed agreements for the
required affordability periods.

                                    AUDITEE RESPONSE

We provided a draft memo to the City and HUD on July 11, 2012, and requested the City
provide a written response by July 30, 2012. We held the exit conference on July 12, 2012, and
the City provided a written response on July 26, 2012. The City is working with HUD to address
the deficiencies identified in the OIG review. The complete text of the City's response is
included in appendix A.

                                   RECOMMENDATIONS

The San Antonio office is working with the City to develop corrective actions to address the
compliance issues identified in our review. Therefore, no further OIG involvement is warranted.
                                4


APPENDIX A

             Auditee Comments
5
